                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF MVESTIGATIONS

                                              CLOSEOUT MEMORANDLTM

 Case Number: A07100060
                                                                               11        Page 1 of 1
                                                                                                           11
                 NSF OIG received an allegation that the subject' had copied into her awarded proposal2
         material from a draft of an a r t i ~ l e .The
                                                    ~ documents were compared and the proposal was also
         examined for any evidence of copied material from additional sources. No evidence of plagiarism
         or intellectual theft from the draft article and no evidence of plagiarism from any additional
         sources were found. The research plans within the two documents were also compared and no
         evidence existed regarding intellectual theft.

                   Accordingly, this case is closed.




NSF OIG Form 2 (1 1102)
